RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-267
Our Lady of Guadalupe School,
Petitioner,
v.
Agnes Morrissey-Berru,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Eric D. McArthur, certify that
the Brief of Amici Curiae General Conference of Seventh-day Adventists and Jewish
Coalition for Religious Liberty in Support of Petitioner in the foregoing case
contains 4,518 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 30, 2019.
/s/ Eric D. McArthur
ERIC D. MCARTHUR
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, DC 20005
(202) 736-8000

